No.

£0 °669 5
filed
DEC 1 9 2020

IN THE

SUPREME COURT OF TH

e UNITED STATES

— petitioner

In rp" Lori Anna Massey

(Your Name)
vs.
M^tiCare Health Systems

"et al" _ resPONDENTIS)

ON PETITION FOR A WRIT of

CEBTIOBABI TO

District of Washington at Tacoma

District court, Western

PETITION

for

WRIT OF CERTIORARI

i nri Anna Massey _
(Your Name)
179RE.G Street, J64
(Address)

nntario,CA9176j__
(City, State, Zip Code)
19^222-0664
(Phone Number)

MERITS OF YOUR CASE)

QUESTION(S) PRESENTED

1. Should no time limit apply?
R.C.W. 4.16.190 If a person entitled to bring an action
against a sheriff or other officer be at the time the cause
of action accrued be incompetent or disabled, mentally c

physically, to such a degree that he or she cannot bring
forth or understand the nature of the preceedings, such
incompetency or disability shall not be a part of the time
limited for the commencement of action.
Guidlines for Tolled Extension of Time: if the plaintiff is
incapacitated by a physical, mental or medical crisis or
incompetent at the time of expiration of the 'Statute of
Limitation', the statute may be lifted or tolled until the
plaintiff regains capacitation or restored competency or
physically restored to be whole again.

list of PARTIES
caption of the case on the cover page.
[ ] All parties appear in the

the subject of this petition is as follows.
Defendants MultiCare Health System a"^J'®^t°7providing health care
all times relevant a health care sy®
. e inc|USjve, responsible and
services for Pierce County resld®"k .Ag^p^ect Result of Assault’ by
culpable for the damages I receiveand
Richard B. Gomez, Allenmore HoaprtahM* jr 0^ ^ ^
accomplices, (male nur^"^e
’mQthattookp|aCeat
Sheriff Kimlwriy
« ^yae" «*W
Allenmore Hospital, a

RELATED CASES
Allenmore Hospital
Pierce County Sheriffs Department

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION......................................................................

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

'3

STATEMENT OF THE CASE.................................................

4
5
6

REASONS FOR GRANTING THE WRIT..................................
CONCLUSION

INDEX TO APPENDICES
APPENDIX

6pinions

appendix gurisdiction

28 U.S.C. 1332

appendix Bonstitutional

& Statuatory Provisions

Involved
appendix statement of the Case
appendix Season

for Granting the Writ

appendix ionclusion

table of authorities cited

CASES
1.

Victim of Crime Reports - April 17, 2010
Case/Cause No. B00236039
Incident No. 101070364

2. Injuries List/Diagnosis Codes
3. NEXUS Report (Motive)
4. Class Action Lawsuit (Motive) Nov. 14,2007
Cause No. 04-2-07032-1
Re: Abba Plemmons & Members
Vs.
Pierce County Sheriffs

STATUTES AND rules
5 Color of Law/Poiice Brutality
' Malicious & Deadly Instrumentality
Title 18 U.S.C. 241 &242
Conspiracy against Rights
Deprivation of Rights
6. Tort Claims
7. Expert Witnesses

8. Evidence

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

DO For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix -A— to
the petition and is
DO reported at United States Court of Appeals for the Ninth Circuit ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
Western District of Washington at Tacoma
[>/reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

§_to

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____to the petition and is
[ ] reported at
■» or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the_
to the petition and is
appears at Appendix
;or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

(Appendix A)

JURISDICTION
IX] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ///45/2020
[ ] No petition for rehearing was timely filed in my case.
C ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:-------------------——------, and a copy of the
order denying rehearing appears at Appendix------- [ ] An OTtensrinn of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including--------in Application No. —A
The jurisdiction of ibis Court is invoked under 28 U. S. C. § 1264(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix--------[ ] A timely petition for rehearing was thereafter denied on the following date:
___________________ _ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)in
(date) on
to and including-----Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.
(Appendix B)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. United States Constitution
“We the People”

2. Civil Rights Act of 1964
3. The United Nations Universal Declaration of Human Rights which are
regularly protected as natural legal rights in the municipal and
international law, whereas recognition of the inherent dignity and of
the equal and inalienable rights of all the members of the human
family is the foundation of freedom, justice and peace in the world....
All human beings are both free and equal in dignity and rights.

3.
(Appendix C)
STATEMENT OF THE CASE

STATEMENT OF THE CASE

,

1. No Statute of Limitations. Tolled and suspended for serious crimes such
as murder, attempted murder, kidnapping etc... The operation of Statute of
Limitation can be avoided and eliminated altogether/tolled if serious crimes
and/or permanent mental and physical injuries occurred, factors that delay
the ability of the plaintiff to take action.
2. On April 17,2010,1 went to Allenmore Hospital's emergency room
expecting to receive courteous and considerate medical care. Instead, the
defenders Richard B. Gomez (Security guard) and an accomplice, male
nurse, (name unknown) both employees of Allenmore Hospital, a MultiCare
Health System facility, intentionally interfered with my Civil Rights by threats,
intimidation and coercion in that the two men acted violently against me to
deter me from exercising my free will and rights to medical care without
expecting to be harmed or injured in Tacoma, WA, Pierce County.
2.On April 17,2010, after realizing that Richard Gomez and accomo|g| pos&
a violent attack and eminent threat on/to my life, I tried to quicklymne ER aru
the two men 'FOLLOWED ME OUT THE DOORS' and attacked me from behim
They assaulted and battered, beat and lynched me for approimately 10
minutes.
4.Then the Pierce County Sheriff and the Tacoma Police arrived and "Upon
arrival was a further Tip of Injustice", as per Dr. Vu also. Still on the ground, X\
two men then began twisting and holding my arms and feet, holding me dov
as Pierce County Sheriff Deputy Kimberly Dawn Klemme used the
unnecessary, unreasonable deadly malicious instrmentality of steel-toed
boots with excessive force to kick me from head to toe. You cannot kick a
person unless they are already oM the ground!
4.<l
(Appendix D)

Direct Result/Proximate Cause of Assault’ on April 17,2010
5. ‘As a
plaintiff has been and continues to be incapacitated having:
a) Mental Instability.
b) Permanently Broken Skull w/ Orbital and Nasal Cavity Fractures
also called Ecchymosis/Battle Sign.
c) Permanently Broken Cervical and Lumbar Spines &
SacralFractures and critical massively flowing/floating ossification
and/or bone particles and fragments.
d) Completely detached/amputated Shoulders/Humeral Head
(bilateral).
e) Legal blindness . Cataract removal w/ implants due to head
trauma.
f) Permanent Brain damage and Spinal Cord injuries.
g) Herniations of Cerebrospinal Fluid through the Skull and
Diaphragm.
h) Permanent Extruding Fragment through the Oropharynx.
i) Meniscus tears of the Knees.
j) Ankle Fractures etc...
6. A person has the ability to sue because the acts committed were in
violation of the United States Constitution, and because it is a federal crime
to injure, intimidate or interfere with those seeking to obtain hospital, health,
or medical services. Plaintiff, by standing to privately prosecute a right
without having been personally injured or expecting harm or subject to
retaliation on April 17, 2010 at Allenmore Hospital in Tacoma, WA, Pierce
County.

4(b)
(Appendix D)
STATEMENT OF THE CASE

Page 1 o:

ititled document - Google Docs

STATEMENT OF THE CASE
7. By perpetrating, sanctioning, tolerating and
ratifying the outrageous conduct and other wrongful
acts, the defendants acted with an intentional
reckless and callous disregard for the health,
safety, and welfare of the plaintiff and the plaintiff’s
Constitutional, Civil, and Human Rights.
8. Defendants deprived plaintiff of rights and
liberties secured in that their supervising,
managerial, training and controlling of employees,
agents, and representatives acted with gross and
deliberate negligence. At all times, agents knew or
reasonably should have known that Richard B.
Gomez and accomplice had dangerous
propensities for abusing their authority and for
mistreating innocent citizens.
9. ‘As a Direct and Proximate Cause’ of intentional
infliction, plaintiff continues to suffer extreme
physical pain, and also to this day, incurred

4(c)
(Appendix D)

itml:file://D:\MultiCare Statement of the Case Supreme Court.mhtml

11/30/20

Page 3 o:

ititled document - Google Docs

Independent contractors that are not employees,
but the corporation/company can still be held
culpable and accountable for ‘Granting Privileges’
to those that are independent.

4(e)
(Appendix D)

itml:file://D:\MultiCare Statement of the Case Supreme Court.mhtml

11/30/20

ititled document - Google Docs

Page 5 o:

d) Punitive damages - meant to deter
defendants from injuring/harming anyone
else.
e) Pecuniary damages - money damages in
the sum amount of Thirty Million
($30,000,000.00) Dollars from each of
them, MultiCare Health System and
Allenmore Hospital.

itml:file://D:\MultiCare Statement of the Case Supreme Court.mhtml

11/30/20

REASONS FOR GRANTING THE PETITION

The ability o^n indigent person to proceed in court without payment of the
usual fees associated with the lawsuit or appeal
2. 28 U.S.C. 201(e)
.
The case is of such imperative importance that it requires immediate
determination in the Supreme Court of the United States.
3. 28 U.S.C. 1651(a)
, .
An Extraordinary Writ is needed because the exceptional circumstances
warrant the exercises of the court's discretionary powers, and adequate
relief cannot be obtained in any other form or from any other court. Also, the
existense of conflict and disagreements need to be removed.

5.
(Appendix E)

CONCLUSION

The petition for

a writ of certiorari should be granted.

Respectful!; submitted,

ml
Date:

fjp

